No. 19In The

RICHARD DAVID WEISSKOPF
Petitioner,
v.
JEWISH AGENCY FOR ISRAEL, et al
Respondents.

Certificate of Compliance
As required by Supreme Court Rule 33.1(h), I certify that the petition for a writ of
certiorari contains 8,223 words, excluding the parts of the petition that are exempted
by Supreme Court Rule 33.1(d).
I declare under penalty of perjury under the laws of the United States of America
that the foregoing is true and correct to the best of my knowledge and belief.
Executed on July 26, 2019.

Richard David Weisskopf

